Kurschinske v. Pennsylvania

PURSUANT 28 U.S. CODE ยง 1746 - UNSWORN DECLARATION UNDER
PENALTY OF PERJURY; PROOF OF SERVICES
ij

I, Virginia Kurschinske, do swear or declare that on this date,
JbZ c,p
2020 as required by U.S. Supreme Court Rule 29,1
have served th^ enclosed petition for WRIT OF CERTIORARI on each party
to the above proceedings or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the
above documents in the United States mail, properly addressed to each
of them and with first - class postage prepaid or by delivery to third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
One First Street, N.E.,
Washington, D.C. 20543
John Kulzer, A.D.A. (Judge Vardaro, A.D.A. Craig Howe, Admin. Clerk Patricia
Wetherbee) 4 copies
Crawford County District Attorney's Office
Crawford County Common Pleas Court
359 E. Center Street
Meadville, PA 16335
Telephone District Attorney's: (814) 333-7455
FAX: (814)336-4225
Pennsylvania Office of Attorney General
16th Floor, Strawberry Square
Harrisburg, PA 17120
Telephone: (717) 787-3391 (main office line)
FAX: (717)787-8242
Office of the Solicitor General of the United States
Room 5614 Department of Justice
950 Pennsylvania Avenue
N.W. Washington D.C. 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on
2020

16

